No. 19-1080

 

IN THE
Supreme Court of the Anited States

ARCHER AND WHITE SALES, INC., CROSS-PETITIONER,
ve

HENRY SCHEIN, INC.

ON CROSS-PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

REPLY BRIEF FOR THE CROSS-PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,998 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on May 22, 2020.

Colin Casey’ Hogan
Wilson-Epes Printing Co., Inc.
